Ti

C@OCKLE

2311 Douglas Street L ega l B rie f 8 E-Mail Address:

Omaha, Nebraska 68102-1214 Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 ‘Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-223
JANICE SMYTH,
Petitioner,

Vv.
CONSERVATION COMMISSION OF FALMOUTH, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 18th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the BRIEF OF MOUNTAIN STATES LEGAL FOUNDATION
AND CATO INSTITUTE AS AMICI CURIAE IN SUPPORT OF PETITIONER in the above entitled case. All parties
required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED
To be filed for:
Ilya Shapiro Cristen Wohlgemuth
Trevor Burrus Counsel of Record
Cato Institute David C. McDonald

1000 Mass. Ave. N.W.
Washington, D.C. 20001
(202) 842-0200
ishapiro@cato.org

Mountain States Legal
Foundation

2596 South Lewis Way
Lakewood, Colorado 80227

(303) 292-2021

cristen@mslegal.org
dmcdonald@mslegal.org

Counsel for Amicus Curiae

Subscribed and sworn to before me this 18th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

cowie 2» EC Cll Qndiaw-h, ike

My Commission Expires Nov 24, 2020

 

 

Notary Public Affiant 38701
Service List

Janice Smyth v. Conservation Commission of Falmouth, et al.

No. 19-223

Attorney for Petitioner Attorney for Respondent
J. David Breemer Nolan Ladislay Reichl

Counsel of Record Counsel of Record
Pacific Legal Foundation Pierce Atwood LLP
930 G Street Merrill’s Wharf
Sacramento, CA 95814 254 Commercial Street
jbreemer@pacificlegal.org Portland, ME 04101
(916) 419-7111 (207) 791-1304
Party name: Janice Smyth Party name: Conservation Commission of

Falmouth and Town of Falmouth

September 17, 2019
